Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL


   NORIDIAN HEALTHCARE
  SOLUTIONS, LLC, CLAIMED
SOME UNALLOWABLE MEDICARE
  POSTRETIREMENT BENEFIT
   COSTS FOR FISCAL YEARS
    2006 THROUGH 2010



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                 Patrick J. Cogley
                                             Regional Inspector General

                                                     March 2014
                                                    A-07-13-00421
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Noridian Healthcare Solutions, LLC, claimed unallowable postretirement benefit plan
  costs of $200,000 for Medicare reimbursement for fiscal years 2006 through 2010.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by the contributions that these contractors make to their dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation as required by the Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors have not always complied with
Federal requirements when claiming PRB costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allowable PRB
costs (which for this report we will refer to as “PRB costs”) that NHS claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACPs).

The objective of this review was to determine whether the fiscal years (FYs) 2006 through 2010
PRB costs that NHS claimed for reimbursement under fiscal intermediary and carrier contracts
were allowable and correctly claimed.

BACKGROUND

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is
in Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment (DME) operations under cost reimbursement contracts with CMS. With the
implementation of Medicare contracting reform, NHS continued administering these Medicare
operations after receiving the Medicare administrative contractor (MAC) contracts for
Jurisdictions D and 3, effective June 30, 2006, and July 31, 2006, respectively.

During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the PRB costs claimed by NHS under the
provisions of its fiscal intermediary and carrier contracts. We reviewed the PRB costs that NHS
used in the calculation of its indirect cost rates under the provisions of its MAC-related contracts
and are reporting those findings in Noridian Healthcare Solutions, LLC, Understated Its
Medicare Segment Allocable Postretirement Benefit Costs and Overstated Its Other Segment
Allocable Postretirement Benefit Costs for Calendar Years 2006 Through 2010
(A-07-13-00422).




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)              i
Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our finding and recommendation regarding
PRB costs claimed under the fiscal intermediary and carrier contracts.

We reviewed $7,990,856 of Medicare Part A, Part B, and DME PRB costs that NHS claimed for
Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts, and
reported on its FACPs, for FYs 2006 through 2010.

WHAT WE FOUND

NHS claimed PRB costs of $7,990,856 for Medicare reimbursement; however, we determined
that the allowable PRB costs during this period were $7,790,883. The difference, $199,973,
represented unallowable fiscal intermediary and carrier contract PRB costs that NHS claimed on
its FACPs for FYs 2006 through 2010. NHS claimed these unallowable Medicare PRB costs
because it incorrectly calculated the assignable PRB costs for this time period.

WHAT WE RECOMMEND

We recommend that NHS revise its FACPs for FYs 2006 through 2010 to reduce PRB costs by
$199,973.

AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendation and said that
it would revise its FACPs.




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)       ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Noridian Healthcare Solutions, LLC ...................................................................... 1
                 Medicare Reimbursement of Postretirement Benefit Costs .................................... 2

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Postretirement Benefit Costs ................................................................................ 3
           Unallowable Postretirement Benefit Costs Claimed........................................................... 3

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................4

    B: Federal Regulations Related to Medicare
       Reimbursement of Postretirement Benefit Costs .................................................................6

    C: Allowable Medicare Postretirement Benefit
       Costs for Noridian Healthcare Solutions, LLC,
       for Fiscal Years 2006 Through 2010 ...................................................................................7

    D:     Auditee Comments ............................................................................................................ 11




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)                                                        iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by the contributions that these contractors make to their dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) as required by the Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors have not always complied with
Federal requirements when claiming PRB costs for Medicare reimbursement.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allowable PRB
costs (which for this report we will refer to as “PRB costs”) that NHS claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACPs).

OBJECTIVE

Our objective was to determine whether the fiscal years (FYs) 2006 through 2010 PRB costs that
NHS claimed for reimbursement under fiscal intermediary and carrier contracts were allowable
and correctly claimed.

BACKGROUND

Noridian Healthcare Solutions, LLC

During our audit period, NHS, formerly called Noridian Administrative Services, LLC (NAS),
was a subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is
in Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment (DME) operations under cost reimbursement contracts with CMS. With the
implementation of Medicare contracting reform, NHS continued administering these Medicare
operations after receiving the Medicare administrators contractor (MAC) contracts 1 for
Jurisdictions D and 3, effective June 30, 2006, and July 31, 2006, respectively. 2, 3



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005 and
October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions where the MACs are not fully
operational, the fiscal intermediaries and carriers continue to process claims. For purposes of this report, the terms
“Medicare contractor” and “MAC” mean the fiscal intermediary, carrier, or MAC, whichever is applicable.
2
 DME Jurisdiction D comprises the States of Alaska, Arizona, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming, and the territories of
American Samoa, Guam, and the Northern Mariana Islands.
3
 Medicare Parts A and B Jurisdiction 3 comprises the States of Arizona, Montana, North Dakota, South Dakota,
Utah, and Wyoming.


Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)                                1
During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the PRB costs claimed by NHS under the
provisions of the fiscal intermediary and carrier contracts. We reviewed the PRB costs that NHS
used in the calculation of its indirect cost rates under the provisions of its MAC-related contracts
and are reporting those findings in Noridian Healthcare Solutions, LLC, Understated Its
Medicare Segment Allocable Postretirement Benefit Costs and Overstated Its Other Segment
Allocable Postretirement Benefit Costs for Calendar Years 2006 Through 2010
(A-07-13-00422).

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our finding and recommendation regarding
PRB costs claimed under the fiscal intermediary and carrier contracts.

Medicare Reimbursement of Postretirement Benefit Costs

CMS reimburses a portion of the funded accruals that contractors charge for their PRB plans. To
be allowable for Medicare reimbursement, FAR 31.205-6(o) requires that PRB accrual costs be
(1) determined in accordance with Statement of Financial Accounting Standards (SFAS) 106 and
(2) funded into a dedicated trust fund, such as a voluntary employee benefit association (VEBA)
trust.

HOW WE CONDUCTED THIS REVIEW

We reviewed $7,990,856 of Medicare Part A, Part B, and DME PRB costs that NHS claimed for
Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts, and
reported on its FACPs, for FYs 2006 through 2010.

NHS participates in a VEBA trust for the purpose of funding annual PRB accruals. Furthermore,
NHS’s accounting practice, approved by CMS, uses segmented accrual accounting for its PRB
plans.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                 FINDING

NHS claimed PRB costs of $7,990,856 for Medicare reimbursement; however, we determined
that the allowable PRB costs during this period were $7,790,883. The difference, $199,973,
represented unallowable fiscal intermediary and carrier contract PRB costs that NHS claimed on
its FACPs for FYs 2006 through 2010. NHS claimed these unallowable Medicare PRB costs
because it incorrectly calculated the assignable PRB costs for this time period.



Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)          2
CLAIMED POSTRETIREMENT BENEFIT COSTS

NHS submitted Medicare PRB costs of $7,990,856 for Medicare reimbursement, under the
provisions of its fiscal intermediary and carrier contracts, on its FACPs for FYs 2006 through
2010. We calculated the allowable Medicare PRB costs based on separately computed PRB
costs for the Medicare segment and the Other segment in accordance with the FAR. For details
on the Federal requirements, see Appendix B.

UNALLOWABLE POSTRETIREMENT BENEFIT COSTS CLAIMED

We determined that the allowable PRB costs for FYs 2006 through 2010 were $7,790,883.
Thus, NHS claimed $199,973 of unallowable fiscal intermediary and carrier contract PRB costs
on its FACPs for FYs 2006 through 2010. This overclaim occurred because NHS based its claim
for Medicare reimbursement on incorrectly calculated assignable PRB costs for FYs 2006
through 2010. More specifically, this overclaim occurred primarily because of differences in the
identification of the Medicare segment participants.

The table below compares allowable PRB costs with the PRB costs claimed on NHS’s FACPs
and reflected in its accounting documents. Appendix C contains additional details on allowable
PRB costs.

             Table: Comparison of Allowable PRB Costs and Claimed PRB Costs


                                        Medicare PRB Costs
                                     Allowable    Claimed by
                    Fiscal Year      Per Audit       NHS                    Difference
                       2006          $3,714,093     $3,897,308               ($183,215)
                       2007           2,227,231       2,258,611                 (31,380)
                       2008           1,323,363       1,337,344                 (13,981)
                       2009             454,051         430,778                   23,273
                       2010              72,145          66,815                    5,330
                       Total         $7,790,883     $7,990,856               ($199,973)

                                        RECOMMENDATION

We recommend that NHS revise its FACPs for FYs 2006 through 2010 to reduce PRB costs by
$199,973.

                                       AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendation and said that
it would revise its FACPs. NHS’s comments are included in their entirety as Appendix D.




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)        3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $7,990,856 of Medicare Part A, Part B, and DME PRB costs that NHS claimed for
Medicare reimbursement under the provisions of its fiscal intermediary and carrier contracts, and
reported on its FACPs, for FYs 2006 through 2010.

Achieving our objective did not require that we review NHS’s overall internal control structure.
We reviewed the internal controls related to the PRB costs claimed for Medicare reimbursement
to ensure that the PRB costs were allocable in accordance with the FAR and the MAC contract.

We performed fieldwork at NHS’s office in Fargo, North Dakota, during April and May 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR and Medicare contracts applicable to this audit;

    •   reviewed accounting records and FACP information provided by NHS to identify the
        amount of PRB costs claimed for Medicare reimbursement for FYs 2006 through 2010;

    •   used information that NMIC’s actuarial consulting firms provided, including information
        on VEBA assets, PRB obligations, service costs, contributions, claims paid, claims
        reimbursed, investment earnings, and administrative expenses;

    •   examined NHS’s PRB plan documents and annual actuarial valuation reports, which
        included SFAS 106 information;

    •   determined the extent to which NHS funded PRB costs with contributions to the VEBA
        trust, accumulated prepayment credits, and direct payments;

    •   engaged the CMS Office of the Actuary to calculate the PRB costs based on the SFAS
        106 methodology applied in accordance with FAR 31.205-6(o); and

    •   reviewed and verified the CMS actuaries’ methodology and calculations and used this
        information to calculate the PRB costs for the Medicare segment and the Other segment
        for the period FYs 2006 through 2010.

We performed this review in conjunction with the following audits and used the information
obtained during this review:

    •   Noridian Healthcare Solutions, LLC, Understated Its Medicare Segment Postretirement
        Benefit Assets as of January 1, 2011 (A-07-13-00420) and



Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)          4
    •   Noridian Healthcare Solutions, LLC, Understated Its Medicare Segment Allocable
        Postretirement Benefit Costs and Overstated Its Other Segment Allocable Postretirement
        Benefit Costs for Calendar Years 2006 Through 2010 (A-07-13-00422).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)      5
          APPENDIX B: FEDERAL REGULATIONS RELATED TO MEDICARE
            REIMBURSEMENT OF POSTRETIREMENT BENEFITS COSTS

Federal regulations (FAR 31.205-6(o)) require that PRB accrual costs be determined in
accordance with SFAS 106 and funded into a dedicated trust fund, such as a VEBA trust. The
FAR states that accrual accounting may be used to determine the allowable PRB costs if the cost
is measured and assigned (actuarially determined) according to generally accepted accounting
principles based on amortization of any transition obligation. Costs attributable to past service
(transition obligation) must be assigned under the delayed recognition methodology described in
paragraphs 112 and 113 of SFAS 106. The FAR also states that allowable costs must be funded
by the time set for filing the Federal income tax return or any extension thereof, and must
comply with the applicable standards promulgated by the Cost Accounting Standards (CAS)
Board.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Costs Claimed (A-07-13-00421)        6
                             APPENDIX C: ALLOWABLE MEDICARE POSTRETIREMENT BENEFIT 

                                  COSTS FOR NORIDIAN HEALTHCARE SOLUTIONS, LLC, 

                                         FOR FISCAL YEARS 2006 THROUGH 2010


                                                                         Total              Other        Medicare        Total
           Date                       Description                       Company            Segment       Segment        Medicare

           2005            CY Allocable PRB Cost                  1/                       $2,931,984     $3,170,485

           2006            Contributions                          2/     $7,559,069        $4,550,308     $3,008,761
                           Discount for Interest                  3/      ($247,879)        ($149,029)      ($98,850)
     January 1, 2006       Present Value Contributions            4/     $7,311,190        $4,401,279     $2,909,911
                           Prepayment Credit Applied              5/     $1,685,599        $1,014,446       $671,153
                           Present Value of Funding               6/     $8,996,789        $5,415,725     $3,581,064

     January 1, 2006       CAS Funding Target                    7/      $9,389,140        $5,650,678     $3,738,462
                           Percentage Funded                     8/                            95.84%         95.79%
                           Funded PRB Cost                       9/                        $5,415,610     $3,581,073
                           Allowable Interest                   10/                          $149,025        $98,850
           2006            CY Allocable PRB Cost                                           $5,564,635     $3,679,923
                           FY Allocable PRB Cost                11/                        $4,906,472     $3,552,564
                           FY Medicare LOB*                     12/
                           Percentage                                                          13.19%         86.33%

           2006            FY Allowable PRB Costs               13/                          $647,164     $3,066,929    $3,714,093




                                                                         Total              Other        Medicare        Total
           Date                       Description                       Company            Segment       Segment        Medicare

           2007            Contributions                                 $8,177,157        $5,193,360     $2,983,797
                           Discount for Interest                          ($288,178)        ($182,731)     ($105,447)
     January 1, 2007       Present Value Contributions                   $7,888,979        $5,010,629     $2,878,350
                           Prepayment Credit Applied                             $0                $0             $0
                           Present Value of Funding                      $7,888,979        $5,010,629     $2,878,350

     January 1, 2007       CAS Funding Target                            $8,039,499        $5,105,702     $2,933,797
                           Percentage Funded                                                   98.14%         98.11%
                           Funded PRB Cost                                                 $5,010,736     $2,878,348
                           Allowable Interest                                                $182,735       $105,447
           2007            CY Allocable PRB Cost                                           $5,193,471     $2,983,795
                           FY Allocable PRB Cost                                           $5,286,262     $3,157,827
                           FY Medicare LOB*
                           Percentage                                                          15.03%         45.37%

           2007            FY Allowable PRB Costs                                            $794,525     $1,432,706    $2,227,231




Noridian Healthcare Solutions, LLC, Postretirement Benefit Costs Claimed (A-07-13-00421)                                        7
                                                                         Total              Other        Medicare        Total
           Date                       Description                       Company            Segment       Segment        Medicare

           2008            Contributions                                 $7,123,390        $4,626,839     $2,496,551
                           Discount for Interest                          ($152,172)         ($98,998)      ($53,174)
     January 1, 2008       Present Value Contributions                   $6,971,218        $4,527,841     $2,443,377
                           Prepayment Credit Applied                             $0                $0             $0
                           Present Value of Funding                      $6,971,218        $4,527,841     $2,443,377

     January 1, 2008       CAS Funding Target                            $6,836,222        $4,392,845     $2,443,377
                           Percentage Funded                                                  100.00%        100.00%
                           Funded PRB Cost                                                 $4,392,845     $2,443,377
                           Allowable Interest                                                 $96,046        $53,174
           2008            CY Allocable PRB Cost                                           $4,488,891     $2,496,551
                           FY Allocable PRB Cost                                           $4,665,036     $2,618,362
                           FY Medicare LOB*
                           Percentage                                                          13.00%         27.38%

           2008            FY Allowable PRB Costs                                            $606,455       $716,908    $1,323,363




                                                                         Total              Other        Medicare        Total
           Date                       Description                       Company            Segment       Segment        Medicare

           2009            Contributions                                 $3,070,032        $2,075,408       $994,624
                           Discount for Interest                           ($88,496)         ($59,735)      ($28,761)
     January 1, 2009       Present Value Contributions                   $2,981,536        $2,015,673       $965,863
                           Prepayment Credit Applied                       $142,083           $95,613        $46,470
                           Present Value of Funding                      $3,123,619        $2,111,286     $1,012,333

     January 1, 2009       CAS Funding Target                            $5,200,172        $3,499,375     $1,700,797
                           Percentage Funded                                                   60.33%         59.52%
                           Funded PRB Cost                                                 $2,111,173     $1,012,314
                           Allowable Interest                                                 $59,732        $28,760
           2009            CY Allocable PRB Cost                                           $2,170,905     $1,041,074
                           FY Allocable PRB Cost                                           $2,750,402     $1,404,943
                           FY Medicare LOB*
                           Percentage                                                           9.02%         14.66%

           2009            FY Allowable PRB Costs                                            $248,086       $205,965     $454,051




Noridian Healthcare Solutions, LLC, Postretirement Benefit Costs Claimed (A-07-13-00421)                                        8
                                                                         Total              Other          Medicare            Total
           Date                       Description                       Company            Segment         Segment            Medicare

           2010            Contributions                                     $95,029          $95,029                 $0
                           Discount for Interest                             ($2,370)         ($2,370)                $0
     January 1, 2010       Present Value Contributions                       $92,659          $92,659                 $0
                           Prepayment Credit Applied                              $0               $0                 $0
                           Present Value of Funding                          $92,659          $92,659                 $0

     January 1, 2010       CAS Funding Target                              $127,942          $127,942                $0
                           Percentage Funded                                                   72.42%             0.00%
                           Funded PRB Cost                                                    $92,656                $0
                           Allowable Interest                                                  $2,370                $0
           2010            CY Allocable PRB Cost                                              $95,026                $0
                           FY Allocable PRB Cost                                             $613,996          $260,269
                           FY Medicare LOB*
                           Percentage                                                          11.75%              0.00%

           2010            FY Allowable PRB Costs                                             $72,145                 $0         $72,145

    * Line of business.

ENDNOTES

 1/ The calendar year (CY) allocable PRB cost is the amount of PRB cost that may be allocated for contract cost purposes. We 

    obtained the CY 2005 allocable PRB cost from our prior NMIC review (A-07-08-00281), issued August 28, 2009.


 2/ We calculated Total Company contributions by taking the contributions amounts from the PRB actuarial valuation reports plus
    any direct benefit payments that were not reimbursed by the VEBA trust, as provided by NHS. Direct benefit payments for each
    year are considered to be funded en masse in the middle of each CY. Such contributions can be used to satisfy the funding
    requirement of FAR 31.205-6(o)(2)(iii). The contributions included deposits made during the plan year (PY) and the discounted
    value of accrued contributions, if any, deposited after the end of the PY but within the time allowed for filing tax returns.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions and actual contribution amounts. Interest is determined using the expected long-term
    rate of return assumption as reported in the PRB actuarial valuation report.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    CY.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is 

    created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, 

    with interest, to fund future PRB costs.


 6/ The present value of funding represents the present value of contributions plus prepayment credits plus direct benefit payments. 

    This is the amount of funding that is available to cover the CAS funding target measured at the first day of the CY.


 7/ The CAS funding target is based on the assignable PRB costs computed during our review. The CAS funding target must be 

    funded by accumulated prepayment credits or current year contributions or direct benefit payments to satisfy the funding 

    requirements contained in the FAR. 



Noridian Healthcare Solutions, LLC, Postretirement Benefit Costs Claimed (A-07-13-00421)                                                9
 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because
    any funding in excess of the CAS funding target is accounted for as a prepayment, the funded ratio may not exceed 100 percent.
    We computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded PRB cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded PRB cost, less the prepayment credit, accrues in the same proportion as the interest on
    contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-
    6(o)(4), which provides that interest costs are unallowable if caused by a delay in funding beyond 30 days after the end of each
    quarter to which they are assigned.

11/ We converted the CY allocable PRB cost to an FY basis (October 1 through September 30). We calculated the FY PRB costs as
    1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

12/ We determined the Medicare LOB percentages based on information provided by NHS.

13/ We computed the FY allowable PRB costs as the FY allocable PRB cost multiplied by the Medicare LOB percentage.




Noridian Healthcare Solutions, LLC, Postretirement Benefit Costs Claimed (A-07-13-00421)                                               10
                                  APPENDIX D: AUDITEE COMMENTS





                                                        ~
                                                       NDRIDIAN.
                                                       Mutua/Insurance Company




            February 6, 2014



            Mr. Patrick J. Cogley
            Regional Inspector General for Aud it Services
            Office of Audit Services, Region VII
            601 East 12th Street, Room 0429
            Kansas City, MO 64106


            Re: Report A-07-13-00421



            Dear Mr. Cogley,

            We have reviewed your draft report entitled Noridian Healthcare Solutions, LLC, Understated Its
            Medicare Segment Postretirement Benefit Assets as of January 1, 2011 and offer the following
            comments:

            Recommendation:

                 •    Recommend that No rid ian Healthcare Solutions revise it FACPs for FYs 2006 through 2010 to
                      reduce PRB costs by $199,973.
                          o We concur w ith this recommendation and will revise the Final Administrative Cost
                             Proposals.



            Sincerely,


            ~ -_../.~.~
            Brian Fellner
            Enterprise Vice President and Chief Financial Officer




           2930503B                        4510 13th Avenue South • Fargo, North Dakota 58121




Noridian Healthcare Solutions, LLC, Postretirement Benefits Costs Claimed (A-07-13-00421)                           11
